                          Office of Inspector General
                          Legal Services Corporation



Inspector GeneraJ
Jeffrey E. Schanz

3333 K Street, NW, 3rd Floor
Washington, DC 20007~3558
202.295.1660 (p) 202.337.6616 (f)
www.oig. lsc.gov



                    February 18, 2011


                    Mr. Jonathan D. Asher
                    Executive Director
                    Colorado Legal Services
                    1905 Sherman Street
                    Denver, CO 80203

                    Dear Mr. Asher:

                    Enclosed is the Office of Inspector General's final report on the results of our
                    audit on Selected Controls at Colorado Legal Services. We have reviewed your
                    response to the recommendations in the draft report and believe your proposed
                    actions adequately address the issues. Recommendations 1 and 3 are closed
                    because corrective actions have already been taken. Recommendations 2, 4,
                    and 5 are open until all stated management actions are taken and the OIG is
                    notified of such in writing.

                    Thank you and your staff for your courtesy and cooperation during this audit.

                    Sincerely,



                    ~~h!ib-
                    Inspector General

                    Enclosure


                    cc:        James Sandman, President
                               Legal Services Corporation




                                                                                        =!LLSC
                                                                                        II     E'I,,~1
                                                                                               Arn.,;",.'. l':.,lnu f or   Justice
 LEGAL SERVICES CORPORATION
 OFFICE OF INSPECTOR GENERAL




REPORT ON SELECTED INTERNAL
         CONTROLS



  COLORADO LEGAL SERVICES
          RNO 706060


        Report No. AU-11-02

          February 2011

          www.oig.lsc.gov
                                EXECUTIVE SUMMARY

Audit Process: The Legal Services Corporation (LSC) Office of Inspector
General (OIG) assessed the adequacy of selected internal controls in place at
Colorado Legal Services (CLS or grantee) related to grantee operations and
oversight. Audit work was conducted at the grantee’s main office in Denver,
Colorado and at LSC headquarters in Washington, DC. The on-site fieldwork
was conducted from November 2 through November 6, 2009.

Results in Brief: In general, internal controls reviewed were adequate;
however, in four specific areas, controls needed to be strengthened or
formalized. Grantee disbursements tested were adequately supported. Internal
controls over reimbursements and internal management reporting and budgeting
were adequate and adhered to. Internal controls over compliance with specific
LSC regulations reviewed were adequate. However, at the time of fieldwork, the
grantee did not have an accurately documented cost allocation process in place
to adequately ensure proper distribution of indirect costs and non-labor related
direct costs among grants. Although adequate written policies and procedures
exist concerning Client Trust Fund accounting, the grantee did not follow the
policies and procedures contained in its current Accounting Manual. The grantee
did not maintain a master inventory list for use in reconciling physical property
inventory. The grantee did not have written procedures documenting the
arrangements made with employees governing the reimbursement for business
use of employee-owned Personal Digital Assistants (PDAs), including cell
phones.

Recommendations: The OIG recommends that:

      a cost allocation methodology that properly allocates all costs be
       implemented and fully documented in the grantee’s Accounting Manual;
      the Executive Director ensure, through training and supervisory oversight,
       that grantee staff follows the Client Trust Fund accounting policies and
       procedures contained in its Accounting Manual;
      a master inventory list be created containing the fixed assets owned by
       the grantee with the results reconciled to the accounting records; and
      procedures be implemented and included in the Accounting Manual
       requiring arrangements made with employees for reimbursement for the
       business use of personal electronic devices be documented.

Summary of Grantee Comments: Grantee management stated that all OIG
recommendations had been acted upon. The grantee stated that a cost
allocation methodology that properly allocates all costs has been implemented
and will be fully documented in the grantee’s Accounting Manual. The Executive
Director stated that through extensive staff training and supervisory oversight that
the Client Trust Fund accounting procedures will be complied with. The grantee
stated that a master inventory list has been created detailing the fixed assets


                                         i
owned by the grantee and that the results will be reconciled to the accounting
records. Finally, grantee management has stated that written procedures
documenting employee reimbursement arrangements for the business use of
personal cell phones and other wireless devices has been revised and includes a
procedure for employee request, and program approval, of cell phone/PDA
reimbursement.

OIG Evaluation of Grantee Comments: The grantee’s comments are
responsive to the issues raised in this report. Recommendations 1 and 3 are
considered closed. Recommendations 2, 4 and 5 are considered open until such
time the grantee and its Board of Directors have taken the actions described in
the response.




                                       ii
                                        TABLE OF CONTENTS

INTRODUCTION ......................................................................................... 1

OBJECTIVE ................................................................................................. 1

SCOPE AND METHODOLOGY................................................................... 1

OVERALL EVALUATION ............................................................................. 2

AUDIT FINDINGS ........................................................................................ 3

       Cost Allocation Process ....................................................................... 3
       Recommendation 1 .............................................................................. 4
       Management Comment ....................................................................... 4

       Recommendation 2 .............................................................................. 5
       Management Comment ....................................................................... 5

       Client Trust Fund Accounting ............................................................... 5
       Recommendation 3 .............................................................................. 6
       Management Comment ....................................................................... 6

       Property Management ......................................................................... 6
       Recommendation 4 .............................................................................. 7
       Management Comment ....................................................................... 7

       PDA/Cell Phone Use Policy ................................................................. 7
       Recommendation 5 .............................................................................. 7
       Management Comment ....................................................................... 8

OIG EVALUATION OF MANAGEMENT COMMENTS ................................ 8

APPENDIX I – GRANTEE MANAGEMENT COMMENTS
                                                                   INTRODUCTION

In accordance with the Legal Services Corporation (LSC) Accounting Guide for LSC
Recipients (August 1997) (Accounting Guide)1, Chapter 3, an LSC grantee is required
to establish and maintain adequate accounting records and internal control procedures.
The Accounting Guide defines internal control as the process put in place by the
grantee designed to provide reasonable assurance of achieving the following objectives:

                     safeguarding of assets against unauthorized use or disposition;
                     reliability of financial information and reporting; and
                     compliance with regulations and laws that have a direct and material effect on
                      the program.

The Accounting Guide further provides that each grantee must rely upon its system of
internal accounting controls and procedures to adequately address concerns arising
from such issues as defalcations and to meet the complete financial information needs
of its management.


                                                                     OBJECTIVE

The overall audit objective was to assess the adequacy of internal controls in place at
Colorado Legal Services as the controls related to specific grantee operations and
oversight, including program expenditures, fiscal accountability, and compliance with
selected LSC regulations. The audit evaluated related financial and administrative
areas and tested the applicable controls to ensure that costs were adequately
supported and allowed under the LSC Act and LSC regulations. In addition, the OIG
examined regulatory policies and grantee processes to assess whether controls were
designed in a manner expected to ensure compliance with the LSC Act and the LSC
regulations reviewed.      However, reaching conclusions regarding the grantee’s
compliance with any specific regulation was not an objective of the audit.


                                                               SCOPE AND METHODOLOGY

To accomplish the objective, controls over disbursements, client trust fund accounting,
property inventory, internal management reporting and budgeting, selected LSC
regulations, and employee reimbursements were reviewed. To obtain an understanding
of the internal controls over these areas, grantee policies and procedures were
reviewed, including manuals, guidelines, memoranda, and directives setting forth
current grantee practices.     Grantee officials were interviewed to obtain an
understanding of the internal control framework, and management and staff were
interviewed as to their knowledge and understanding of the processes in place.
Computer-generated data provided by the grantee was relied on to determine whether
                                                            
1
  This audit was conducted during a period when the previous LSC Accounting Guide was in effect. The
revised Accounting Guide for LSC Recipients (2010 Edition) became effective on August 23, 2010.


                                                                         1
entries recorded in computer systems matched the information contained on the source
documents. However, the OIG did not test the general or application controls over the
computer system.

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, disbursements from a judgmentally selected sample of
employee and vendor files were reviewed.            The sample was selected from
disbursements made during the period January 1, 2009 through October 31, 2009 and
consisted of 85 transactions totaling $167,403. To assess the appropriateness of
grantee expenditures, the OIG reviewed invoices, vendor lists, and general ledger
details. The appropriateness of grantee expenditures was evaluated on the basis of the
grant agreements, applicable laws and regulations, and LSC policy guidance.

To review internal controls over client trust fund accounting, property inventory and
internal management reporting and budgeting, the grantee’s systems and processes
were compared to those detailed in the Fundamental Criteria of an Accounting and
Financial Reporting System (Fundamental Criteria) contained in the Accounting Guide.

To review internal controls over compliance with specific LSC regulations (45 CFR Parts
1610, 1612 and 1617), written compliance policies and procedures were examined,
including those based on applicable LSC mandated recordkeeping requirements;
applicable documentation and reports were reviewed; and staff members were
interviewed. This allowed the OIG to determine if the controls were designed in a
manner to ensure compliance with the provisions of the respective LSC regulation.

This review was limited in scope and not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations or compliance with
LSC regulations.

The on-site fieldwork was conducted from November 2 through November 6, 2009.
Documents reviewed pertained to the period January 1, 2009 through October 31,
2009. Our work was conducted at the grantee’s central administrative office located in
Denver, Colorado and at LSC headquarters in Washington, DC.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The evidence obtained provides that basis.


                              OVERALL EVALUATION

Internal controls reviewed at Colorado Legal Services were adequate as the controls
related to specific grantee operations and oversight, including program expenditures,
fiscal accountability, and compliance with LSC regulations. However, some controls
need to be strengthened or formalized.



                                          2
Grantee disbursements tested were adequately supported. The grantee’s current
practices involving internal management reporting and budgeting were in accordance
with the Fundamental Criteria contained in the Accounting Guide. Internal controls over
employee reimbursements were adequate except as noted in the list below.

The following areas were noted where internal controls need to be strengthened:

      At the time of fieldwork, the cost allocation process in place was not accurately
       documented to ensure equitable distribution of costs among grants.
      Client trust fund accounting policies and procedures contained in the grantee’s
       Accounting Manual were not followed.
      A master inventory list for use in reconciling physical property inventory was not
       maintained.
      Written procedures were not developed requiring written agreements and
       establishing reimbursement processes with employees who use their own
       Personal Digital Assistants (PDAs) and cell phones for business use.

Internal controls over compliance with LSC regulations (45 CFR Parts 1610, 1612 and
1617), were adequately designed. Written compliance policies and procedures,
including those based on applicable recordkeeping requirements, were in accordance
with the respective LSC regulation.


                                   AUDIT FINDINGS

Cost Allocation Process

The grantee did not have a cost allocation process in place to adequately ensure
appropriate distribution of indirect costs among grants nor properly record non-labor
direct costs to specific grants. Also, the grantee's current Accounting Manual did not
adequately document the specific cost allocation procedures to be followed in assigning
costs to the various grants or describe factors used in the allocation process.

Cost Allocation Methodology. The accounting software used by the grantee did not
allow the grantee to allocate indirect and non-labor direct expenses by funding source.
Because indirect and non-labor related direct expenses were captured in a holding
account and allocated at the end of the year using a predetermined percentage rather
than being allocated as expenses were incurred, expenses not allowed by LSC may
have been allocated to LSC funds. In addition, allocating non-labor direct costs across
all grants does not accurately account for how grant funds are spent.

The grantee recorded indirect expenses into the system by location and expense
account, and then prepared and maintained spreadsheets to allocate those expenses to
various funding sources. LSC’s share of the expenses was allocated manually on an
annual basis using a predetermined percentage.


                                           3
Non-labor related direct expenses were not recorded against a specific grant. Rather,
non-labor related direct costs were accumulated with indirect costs and allocated in the
same manner as indirect costs on an annual basis.

At the time of fieldwork, the grantee informed the OIG that it had entered into a contract
for new accounting software to be installed at the beginning of 2010. The grantee
believed that with the new software the cost allocation process would be more effective.

Cost Allocation Methodology Documentation. The grantee’s cost allocation system was
not adequately documented in the grantee’s accounting manual. As a result, the OIG
was unable to determine if the system design was adequate or if designed adequately,
whether the system was in fact operating as intended. During the review, management
was unable to provide documentation on how the 20 percent factor, used to allocate
indirect and non-labor costs to LSC funds, was determined, and was unable to provide
any explanation as to how the factor was developed. The factor had been in place for
many years and its origin had been forgotten or those who developed it were no longer
with the program. Unless the allocation process is properly designed, adequately
documented, and accurately applied, the grantee cannot be assured that its costs are
being allocated to LSC and other grantees in a fair, consistent, and equitable manner.

CLS management provided a written cost allocation document detailing a
methodology. The OIG’s review of this document revealed that it did not match the
current practices of the grantee. CLS management further stated that this allocation
process description was included in a proposed revised Accounting Manual. The
proposed revised manual has been presented to the Board of Directors but CLS
management recommended to the Board that the new manual not be adopted until
the new accounting software has been implemented. As explained to the OIG, the
proposed written cost allocation description provided by the grantee appears to be
adequate for the grantee to maintain an allocation methodology that complies with the
Accounting Guide for LSC Recipients Chapter 3, Paragraphs 3-4, 3-5.8, and 3-5.9
and 45 CFR §§1630.3(c)-(g).

      Recommendation 1. The Executive Director should implement a cost allocation
      methodology that properly allocates indirect costs, assigns all direct costs to the
      appropriate funding source, and ensures that no unallowable costs are charged
      to LSC funds. [Reference: 45 CFR §§1630.3(c)-(g)]

      Management Comment
           In 2010, Colorado Legal Services purchased and installed the Sage
           MIP Fund Accounting System. With the installation of this new
           accounting software system, CLS can accurately allocate the
           expenses as they are incurred. As invoices are received, expenses
           are coded to the correct fund source at that time. Payroll expenses
           are allocated each month based on the program’s time records and
           requirements of specific grants.



                                            4
             The purpose of CLS’ cost allocation plan is to summarize, in
             writing, the methodology and procedures that CLS will use to
             allocate costs to various programs, grants, contracts and
             agreements and to ensure that no unallowable costs are charged to
             LSC funds. This costs allocation methodology will be fully set forth
             in the revised CLS Accounting Manual which will be presented to
             and considered for adoption by the CLS Board of Directors at its
             next meeting on March 2, 2011. (Cost Allocation Methodology,
             attached hereto as Attachment I).


      Recommendation 2. The Executive Director should fully document the cost
      allocation process, including an explanation of any factors used to allocate costs,
      as part of its Accounting Manual. (Reference: 45 CFR §§1630.3(c)-(g) and the
      Accounting Guide for LSC Recipients, Chapter 3 Paragraphs 3-4, 3-5.8, and
      3-5.9)

      Management Comment
           The cost allocation methodology set forth above will be fully
           documented in the CLS Accounting Manual which will be presented
           to and considered for adoption by the CLS Board of Directors at its
           next meeting on March 2, 2011.


Client Trust Fund Accounting

The grantee does not follow the client trust fund accounting policies and procedures
contained in its Accounting Manual. In establishing an adequate internal control
structure, each grantee is required by the Fundamental Criteria contained in the
Accounting Guide to develop policies and procedures to be followed when transacting
client trust fund related business.

The grantee’s policies and procedures contained in its Accounting Manual compare
favorably to the Fundamental Criteria. However, these policies and procedures were
not being adhered to by the grantee in its Denver office. The exceptions to the written
policies and procedures included lack of supervisory approval on disbursement
vouchers, absence of case identifying information, and the lack of case closure forms.
In addition, the trust fund release forms are not pre-numbered as required by the
grantee’s Accounting Manual.

Adhering to client trust fund accounting policies and procedures ensures appropriate
distribution of funds, prevents loss of client funds, and strengthens controls over the
funds.




                                           5
      Recommendation 3. The Executive Director should ensure, through training and
      adequate supervisory oversight, that grantee staff follows the client trust fund
      accounting policies and procedures contained in its Accounting Manual.

      Management Comment
           Consistent with this recommendation, CLS has made minor
           modifications to its client trust fund procedures, and these will be
           reflected in the updated CLS Accounting Manual (Client Trust
           Account Procedures, attached hereto as Attachment II). CLS will
           conduct a Managers Training in early 2011; at that time, Managing
           and Supervising Attorneys will be trained on the entire CLS
           Accounting Manual, including the Client Trust Account Procedures.
           CLS senior management, including the Executive Director and
           Controller, will thereafter ensure by thorough and extensive
           training, and supervisory oversight that these procedures are
           complied with by all casehandlers and “trust account custodians.”
           Additionally, the Executive Director will address the Client Trust
           Account Procedures and compliance issues during monthly
           management conference calls and by written communications to all
           program staff.


Property Management

The grantee’s written recordkeeping policies and procedures over its physical inventory
of fixed assets are in accordance with the Fundamental Criteria contained in the
Accounting Guide. However, the grantee does not have a master inventory list for use
in reconciling physical property inventory to the general ledger.

The grantee explained that the merger which resulted in the formation of Colorado
Legal Services brought about different types of physical inventory records from various
offices which were never consolidated. This has resulted in incomplete physical
inventory records from the branch offices and the subsequent absence of a master
inventory list. While the grantee requires each branch office to send to the main office a
list of all equipment in the branch office every 2 years, the grantee does not have a
master inventory list. The Accounting Guide for LSC Recipients (Chapter 2, Paragraph
2-2.4) provides that for property control purposes, a physical inventory should be taken
and the results reconciled with the property records at least once every 2 years. The
Accounting Guide also requires any differences between the physical inventory and the
inventory amounts shown in the accounting records to be reconciled.

Adequate physical inventory records help protect the grantee’s assets and help ensure
that thefts or losses of property are quickly detected. Adequate property records enable
the grantee to fully account for fixed asset purchases and to support property asset
balances in its financial statements.




                                            6
      Recommendation 4. The Executive Director should create a master inventory list
      containing the fixed assets owned by the grantee with the results reconciled to
      the accounting records.

      Management Comment
           As mentioned above, CLS has purchased the Sage MIP Fund
           Accounting System, and in particular, has purchased and installed
           a fixed asset module. CLS is currently in the final process of
           loading the listings of all the inventory items reconciled by each
           office. The data and records have been compiled and CLS
           anticipates that in early 2011 it will have an accurate and complete
           inventory containing all fixed assets so that the results may be
           reconciled to its accounting records.


PDA/Cell Phone Use Policy

For purposes of PDA and cell phone use, the grantee maintains a written policy
permitting business use reimbursement to employees under certain circumstances.
However, there are no written procedures for documenting the arrangement made with
any specific employee governing the reimbursement for business use of their own PDAs
or cell phones.

The grantee reimburses certain employees who travel and spend significant amounts of
time away from their primary office for the business use of their own PDA or cell phone.
The Executive Director, on an annual basis, makes a determination of reasonable
reimbursement. The employee is required to supply the grantee with proof of a current
cell phone or PDA plan, and a monthly bill, when appropriate.

The agreement between the grantee and the employee regarding the terms of the
arrangement is verbal. Consequently, there is no formal written agreement describing
the conditions of the arrangement. The grantee maintains a listing of employees
receiving this benefit and the expenses covered. The OIG reviewed the list and noted
that six individuals were receiving this benefit. The OIG was told that three of these
individuals were reimbursed the entire amount of each monthly bill.            Unless
reimbursement for business use of an employee-owned PDA or cell phone is based on
an analysis of business versus personal use, the program may be subsidizing the cost
of personal use of PDAs and cell phones.

      Recommendation 5.          The Executive Director should formulate written
      procedures documenting employee reimbursement arrangements for the
      business use of personal cell phones and other wireless devices, and incorporate
      such procedures into the grantee’s Accounting Manual. These procedures
      should require that only the business use portion of the bill be reimbursed with
      program funds.




                                           7
     Management Comment
          Consistent with this recommendation, CLS recognizes the
          importance of implementing a procedure for employee request, and
          program approval, of cell phone/PDA reimbursement. In that
          regard, therefore, CLS has drafted proposed changes to its “Cell
          phone/Personal Digital Assistant (PDA) Policy,” which will be
          presented to the CLS Board of Directors for consideration and
          approval at its next meeting on March 2, 2011. The revised policy
          reflects the steps to be undertaken by each employee who requests
          compensation by CLS for cell phone/PDA use that is required by
          the employee’s job responsibility. The policy will reference a
          Request for Cell Phone/PDA Compensation form that the
          requesting employee must complete. (Cell Phone/PDA Policy, and
          Request Form, attached hereto as Attachments III and IV). Upon
          completion of the form, attachment of a cell phone plan or bill, and
          submissions to the Executive Director, the Executive Director shall
          approve or deny the request and, to the extent possible, will ensure
          that only the business use portion of the bill is reimbursed with CLS
          funds. Once the revised policy and form have been approved by
          the CLS Board, the policy will be fully incorporated into CLS’
          Accounting Manual.

OIG Evaluation of Management Comments

Management comments and actions taken or planned are responsive to the
issues raised in this report. The OIG considers Recommendations 1 and 3
closed. Recommendations 2, 4, and 5 are considered open until all stated
management actions are taken and the OIG is notified of such in writing.




                                         8
                                                                                     APPENDIX I
                                       1905 Sherman Street, Suite 400
                                        Denver, Colorado 80203-1 811
                                      Telephone 303-837-1321 V I TDD
                                             Fax 303-830-7860

   Direct Line: 303-866-9399



                                                 January 17,2011


   Ronald D. Merryman
   Assistant Inspector General for Audit
   Office of Inspector General
                        m
   3333 K Street, NW 3 Floor
   Washington, DC 20007

                                                 Re:     Draft Report on Selected Internal Controls
                                                         Recipient 706060

   Dear Mr. Merryman:

          Thank you for the opportunity to respond to the OIG's Draft Report on Selected Internal
   Controls. Please find enclosed our Response to each Recommendation set forth in the Draft
   Report. I have also enclosed Attachments which support the responses.

           If you need any additional information, or if! can provide any further clarification, please
   let me know at your convenience.


                                                Respectfully,


                                                 ~~
                                                 onathan D. Asher
                                                 xecutive Director


   JDAlccg
   Enclosures
   cc:    Anthony M. Ramirez




                                                                                  Mile High
ii~LSC                                                                            United Way
Response to the Office of the Inspector General Report, November 2010
Grantee 706060
Colorado Legal Services


Recommendation 1. The Executive Director should implement a cost allocation methodology
that properly allocates indirect costs to the appropriate funding source, and ensures that no
unallowable costs are charged to LSC funds. [Reference: 45 CFR §§1630.3(c)-(g)].

        In 2010, Colorado Legal Services purchased and installed the Sage MIP Fund
        Accounting System. With the installation of this new accounting software
        system, CLS can accurately allocate the expenses as they are incurred. As
        invoices are received, expenses are coded to the correct fund source at that
        time. Payroll expenses are allocated each month based on the program's time
        records and requirements of specific grants.

       The purpose of CLS' cost allocation plan is to summarize, in writing, the
       methodology and procedures that CLS will use to allocate costs to various
       programs, grants, contracts and agreements and to ensure that no unallowabie
       costs are charged to LSC funds. This costs allocation methodology will be fully set
       forth in the revised CLS Accounting Manual which will be presented to and
       considered for adoption by the CLS Board of Directors at its next meeting on
       March 2, 2011. (Cost Allocation Methodology. attached hereto as Attachment I).


Recommendation 2. The Executive Director should fully document the cost allocation
process, including an explanation of any factors used to allocate costs, as part of its
Accounting Manual. (Reference: 45 CFR §§1630.3(c){g) and the Accounting Guide for
LSC ReCipients. Chapter 3 Paragraphs 3-4, 3-5.8, and 3-5.9)

       The Cost Allocation methodology set forth above will be fully documented in the
       CLS Accounting Manual which will be presented to and considered for adoption
       by the CLS Board of Directors at its next meeting on March 2, 2011.


Recommendation 3. The Executive Director should ensure, through training and adequate
supervisory oversight, that grantee staff follow the client trust fund accounting policies and
procedures contained in its Accounting Manual.

       Consistent with this recommendation, CLS has made minor modifications to its
       client trust fund procedures, and these will be reflected in the updated CLS
       Accounting Manual (Client Trust Account Procedures, attached hereto as
       Attachment II). CLS will conduct a Managers Training in early 2011; at that time,
       Managing and Supervising Attorneys will be trained on the entire CLS Accounting
       Manual, including the Client Trust Account Procedures. CLS senior management,
       including the Executive Director and Controller, will thereafter ensure by
         thorough and extensive training, and supervisory oversight that these
         procedures are complied with by all casehandlers and "trust account
         custodians." Additionally, the Executive Director will address the Client Trust
         Account Procedures and compliance issues during monthly management
         conference calls and by written communications to all program staff.


Recommendation 4. The Executive Director should create a master inventory list containing
the fixed assets owned by the grantee with the results reconciled to the accounting records.

         As mentioned above, CLS has purchased the Sage MIP Fund Accounting System,
         and in particular, has purchased and installed a fixed asset module. ClS is
         currently in the final process of loading the listings of all of the inventory items
         reconciled by each office. The data and records have been compiled and ClS
         anticipates that in early 2011 it will have an accurate and complete inventory
         containing all fixed assets so that the results may be reconciled to its accounting
         records.


Recommendation 5. The Executive Director should formulate written procedures documenting
employee reimbursement arrangements for the business use of personal cell phones and other
wireless devices, and incorporate such procedures into the grantee's Accounting Manual.
These procedures should require that only the business use portion of the bill be reimbursed
with program funds.

        Consistent with this recommendation, ClS recognizes the importance of
        implementing a procedure for employee request, and program approval, of cell
        phone/PDA reimbursement. In that regard, therefore, CLS has drafted proposed
        changes to its "Cell phone/Personal Digital Assistant (PDA) Policy," which will be
        presented to the ClS Board of Directors for consideration and approval at its
        next meeting on March 2, 2011. The revised policy reflects the steps to be
        undertaken by each employee who requests compensation by ClS for cell
        phone/PDA use that is required by the employee's job responsibilities. The
        policy will reference a Request for Cell Phone/PDA Compensation form that the
        requesting employee must complete. (Cell Phone/PDA Policy, and Request
        Form, attached hereto as Attachments III and IV). Upon completion ofthe form,
        attachment of a cell phone plan or bill, and submission to the Executive Director,
        the Executive Director shall approve or deny the request and, to the extent
        possible, will ensure that only the business use portion of the bill is reimbursed
        with CLS funds. Once the revised policy and form have been approved by the
        ClS Board, the policy will be fully incorporated into ClS' Accounting Manual.




Response to the Office of the Inspector General; Grantee 706060                        Page 2 of2
                                                                              Attachment I
                                                                                     Page 1 of2

                             Colorado Legal Services
                           Cost Allocation Methodology

OMB Circular A-122, "Cost Principles for Non-Profit Organizations," establishes
the principles for determining cost of grants, contracts and other agreements
with the Federal Government. CLS' Cost Allocation Plan is based on the Direct
Allocation Method. The Direct Allocation Method treats all costs as direct costs
except general administration and general expenses.

Direct costs are those that can be identified specifically with a particular final
cost objective. Administration and general expenses are those that have been
incurred for common or joint objectives and cannot be readily identified with a
particular final cost objective.

Only a cost that is allowable will be charged to the LSC grant or other federal
grants. This is in accordance with the LSC's statutory provisions, rules,
regulations, guidelines, program letters, and instructions and LSC regulation 4S
CFR 1630. Unallowable costs will be split among grants for which those expenses
are allowable. Costs that are unallowable in accordance with OMB Circular A-
122, including alcoholic beverages, bad debts, advertising (other than help-
wanted ads), contributions, entertainment, fines and penalties will not be
charged to the LSC grant or other federal grants. Lobbying and fundraising costs
which are unallowable as an LSC ex·pense, however, may be treated as general
expenses allocated to specific programs or other grants for which those
expenses are allowable.

As invoices are received, expenses are coded to the correct fund source at that
time. Payroll expenses are allocated each month based on the program's time
records and the requirements ofthe grant.

Cost Allocation Methodology
A cost that is specific to that program or grant is charged directly to that
program or grant. General expenses that are charged to more than one program
or grant are allocated based on the percentage of the amount of income
received from each participant. For example, LSC (basic field) $3,971,198 is
temporarily restricted income, Legal Aid Foundation $1,000,000, and Colorado
Lawyers Trust Account Foundation (IOLTA) $1,950,000 are both unrestricted
income. In this example, total cost allocation is: LSC 58%, LAF 14%, COLTAF 28%,
equaling 100%. These rates would be used to allocate all allowable expenses,
including salaries and benefits.

Distribution Codes were established in MIP for ease of calculation of daily
expenses. The Distribution Codes include the following:
                                                                             Attachment I
                                                                                    Page 2 of 2




General for each office - Use to distribute all non-direct expenses to lSC, IOlTA
and LAF grants based on percentage of income.

Rent for each office - Distribute rent to all funding sources that allow its funds to
be used for space costs by both percentage and dollar amount.

Telephone for each office - Distribute telephone costs to all funding sources that
allow its funds to be used for telephone costs by both percentage and dollar
amount.

Depreciation expense - Makes entry to increase expense and accumulated
depreciation for each asset by funding source and location.

Match funds or In-kind requirements are applied to the grants and funding
sources that allow its funds to be used as a match. LSC funds may be, but usually
are not, used as a match for other grants. No other federal grants are used for
matching funding. legal Aid Foundation of Colorado or Colorado lawyer Trust
Account Foundation (COlTAF) funds may be used to match funds or other grants
as required by the other grant.

Percentage of LSC interest calculation :
The following percentage calculation is used for calculating the lSC portion of
interest. Payments are held in the ClS Investment account. lSC funds are
divided by the total receipts for the month. That rate times the total interest
earned for the month equals the portion of the interest allocated to lSC each
month .
                                                                            Attachment II
                                                                                   Page 1 of 2


                              Colorado legal Services
                     Client Trust Fund Accounting Procedures

Introduction
Trust accounts are maintained in several of the CLS offices to facilitate and
expedite service to its clients. The purpose of the client trust account is to
receive client deposits, when possible, for court costs, filing fees, etc. The total
of these costs are reflected in the general ledger as both an asset and liability
and, therefore, reflect the same amounts. The client trust fund is maintained by
a designated custodian who is responsible for the daily processing of receipts
and disbursements on behalf of clients.

The program, as required by the Rules of Professional Conduct, maintains
appropriate client trust funds in interest-bearing accounts. The program is
required by the Rules to deposit short term or nominal sums of client funds into
such accounts, the interest from which is automatically distributed to the
Colorado lawyers Trust Account Foundation.

Overview

Each client has a separate account which tracks receipts and disbursements
made on his/her behalf. The client trust custodian maintains an active and
inactive set of client ledger files which reflects open and closed cases. A
separate bank account is used for the trust funds.

When a client deposits money, s/he is asked to sign a "Trust Fund Release Form."
The client receives a copy of the form as a receipt for the funds deposited. The
form states that any surplus funds which cannot be refunded to the client after
one year shall be donated to the ClS litigation fund for the purpose of offsetting
other clients' court or litigation costs . The check is then stamped with the
appropriate endorsement and deposited to the appropriate checking account.

All blank checks are kept in a locked file cabinet. All checks are pre-numbered
with specific numbers assigned. All checks must be accounted for by the ClS
Bookkeeper, including cancelled checks. Up to (10) working days are allowed for
deposited checks to clear before issuing disbursements. The financial institution
on which the check is drawn may also confirm that the check has cleared .

Each withdrawal from a client's account must be accompanied by a
"Disbursement Voucher for Trust Accounts Only," which is completed by the
casehandler and approved by the supervisor or managing attorney. These forms
are kept on file and must accompany each disbursement. The check number,
client and reason for disbursement is then recorded in the checkbook, client
                                                                              Attachment II
                                                                                     Page 2 of 2


    ledger and in the Kemps Case Management System. The check is then given to
    the casehandler or mailed to the client.

    If a client is unable to pay for actual court costs or other litigation or related
    expenses, a request is made for disbursement from the litigation fund. A specific
    amount is budgeted annually by the program for this purpose . The Director of
    Advocacy or the Executive Director or his/her other designee must sign the
    litigation expenditure request form and approve the expense prior to incurring
    the expense and disbursement of the check.

   Specific Procedures
1. A copy of the client release form is provided for every client deposit (cash, check
   or money order). Cash deposits must be $100 or less. Amounts in excess of
   $100 must be in the form of a check or money order.

2. Separate client ledgers are maintained for open and closed accounts. The closed
   ledger contains only ledgers with zero balances. If the ledgers shows a balance
   (either positive or negative), it is not placed in the closed file. The ledgers are
   recorded in alphabetical order. The Migrant Unit ledger is identified by the
   settlement name since cases frequently involve multiple clients. Case closing
   memos must be completed by casehandlers (attorneys and paralegals) prior to
   closing a case. The case closing form requires that all client trust funds be
   refunded prior to case closing.

3. Closing notes or notes on the ledger sheet in the check book are also recorded in
   the Kemps Case Management System by the client trust custodian.

4. Client trust account bank statements are reconciled by the Bookkeeper and/or
   Assistant Controller and approved by the Controller on a monthly basis. In
   addition to the bank reconciliation, the active client ledger balances are
   compared to the bank balance on a monthly basis. The reconciliations are used
   by the Controller to make monthly adjusting entries to the general ledger. The
   Controller periodically audits the client trust accounts and reviews the ledger
   reconciliation and bank statements. The Controller also verifies that necessary
   forms are complete and properly maintained by the custodian of the client trust
   account and that receipts and deposits are in order.

5. Any checks remaining outstanding after 60 days are investigated by the
   Bookkeeper. Ifthe client cannot be located, the custodian must make every
   reasonable effort to locate the client, so that the funds can be returned. If the
   funds cannot be retained by CLS, thus, in accordance with Colorado's Unclaimed
   Property Law, balances in client accounts, which are seven (7) years old or more,
   will escheat to the Colorado Department of Treasury Unclaimed Property
   Division.
                                                                                  Attachment III

                               COLORADO LEGAL SERVICES

                          Cell Phone/Personal Digital Assistant (PDA)

                                     Policies and Procedures


        (Proposed additions to current policy highlighted.)

       This Policy specifies when CLS will compensate CLS employees for the use of their
personally-owned cell phone or personal digital assistant (PDA).

        CLS recognizes that certain CLS employees must use their cell phone or PDA for CLS
business. These employees, most often attorneys, advocates, technology support staff and
designated management staff, are expected to travel and may spend significant amounts of time
away from their primary office. Therefore, in order to promote efficiency in job responsibilities,
safety, and accessibility to co-workers, clients, court personnel, and relevant others, the
Executive Director or hislher designee is authorized to determine the necessity for a CLS
employee to be compensated for the business use of a cell phone or PDA.

         In his or her sole discretion, the Executive Director or hislher designee shall determine
reasonable compensation for the employee's business use ofhislher cell phone or PDA. This
 determination shall be made on an annual basis, with submission of the employee's request by
December 15 of each year, and approval by the Executive Director by January 15 of the
subsequent year. The determination shall require the employee to complete a Request for Cell
phone/PDA Compensation (attached) and provide the Executive Director or hislher designee
with evidence and supporting documentation of a current cell phone or PDA plan, and/or a
monthly bill. The Request for Cell phonelPDA Compensation requires the employee to provide
justification for CLS compensation ofherlhis cell phone or PDA, in accordance with herlhis job
responsibilities. A cost-effective plan shall be used for the cell phones or PDAs.


       Request for Cell phone/PDA Compensation Form is attached hereto.




2011 Modifications
                                                                                 Attachment IV

                             COLORADO LEGAL SERVICES
                     REQUEST FOR CELL PHONE/PDA COMPENSATION

 Employee: Fill out this form completely. Attach a copy of a recent cell phone/PDA provider
 monthly statement or your annual plan, with costs stated. Deliver the completed form to the
 Executive Director by December 15. You will be informed of approval or denial of this request
 by January 15 of the subsequent year. If approved, please submit a request for reimbursement to
 the Accounting Department on a monthly basis.


 1. Name of Employee requesting compensation:

2. CeliphonelPDA Service Provider:

3 . Total Monthly service costs:

4. Monthly coverage amount re~uested monthly for business use:

5. How does the use of your cell phonelPDA relate to your existing job responsibilities?

6. What percentage of your currently monthly cell phonelPDA usage is required for work and
business use that could not be completed through other currently provided technology tools
(desktop or laptop computer, office phone, etc.)?

7. Other information in support of your request for compensation for the business use of a cell
phone/PDA compensation?




Name of Participant                                         Date Submitted


APPROVED:


Executive Director                                          Date

Amount approved for CLS monthly compensation: _ _ __



(Revised January, 2011)
